HHS/OIG-Audit--"Review of General and Administrative and Fringe Benefit costs Included in the Fiscal Year 1991 Medicare Cost Reports by Allied Services, Inc., Scranton, Pennsylvania, (A-03-92-00008)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of General and Administrative and Fringe Benefit Costs Included in the Fiscal Year 1991 Medicare Cost Reports
by Allied Services, Inc., Scranton, Pennsylvania," (A-03-92-00008)
January 5, 1992
Complete
Text of Report is available in PDF format (2.1 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Allied Services, Inc. reported general and administrative costs totaling approximately $7 million, as subject to allocation
to Medicare for the year ended June 30, 1991. Our final report points out that this amount included $207,352 which were
not allowable for allocation to Medicare. The unallowable costs included $105,695 for marketing activities, $28,447 for
unallowable travel, $23,741 for charitable contributions, and $49,469 for miscellaneous unallowable costs. These costs
were not related to patient care. The inclusion of the $207,352 of unallowable costs in the FY 1991 cost reports resulted
in increased Medicare reimbursement of $85,848. We are recommending that AS remove these costs from its FY 1991 cost report
and implement controls to prevent the inclusion of such costs in the future.